<html>
<title> - PERSPECTIVES ON U.S. AGRICULTURAL TRADE</title>
<body><pre>[Senate Hearing 115-694]
[From the U.S. Government Publishing Office]


                                                    S. Hrg. 115-694

                          PERSPECTIVES ON U.S.
                           AGRICULTURAL TRADE

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 13, 2018

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

       Available via the World Wide Web: http://www.govinfo.gov/
           
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-553 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------           
          
           
           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY


                     PAT ROBERTS, Kansas, Chairman
MITCH McCONNELL, Kentucky            DEBBIE STABENOW, Michigan
JOHN BOOZMAN, Arkansas               PATRICK J. LEAHY, Vermont
JOHN HOEVEN, North Dakota            SHERROD BROWN, Ohio
JONI ERNST, Iowa                     AMY KLOBUCHAR, Minnesota
CHARLES E. GRASSLEY, Iowa            MICHAEL E. BENNET, Colorado
JOHN THUNE, South Dakota             KIRSTEN E. GILLIBRAND, New York
STEVE DAINES, Montana                JOE DONNELLY, Indiana
DAVID PERDUE, Georgia                HEIDI HEITKAMP, North Dakota
DEB FISCHER, Nebraska                ROBERT P. CASEY, Jr., Pennsylvania
CINDY HYDE-SMITH, Mississippi        TINA SMITH, Minnesota

             James A. Glueck, Jr., Majority Staff Director
                DaNita M. Murray, Majority Chief Counsel
                    Jessica L. Williams, Chief Clerk
               Joseph A. Shultz, Minority Staff Director
               Mary Beth Schultz, Minority Chief Counsel
                            
                            
                            C O N T E N T S

                              ----------                              

                      Thursday, September 13, 2018

                                                                   Page

Hearing(s):

Perspectives on U.S. Agricultural Trade..........................     1

                              ----------                              

                    STATEMENTS PRESENTED BY SENATORS

Roberts, Hon. Pat, U.S. Senator from the State of Kansas, 
  Chairman, Committee on Agriculture, Nutrition, and Forestry....     1
Stabenow, Hon. Debbie, U.S. Senator from the State of Michigan...     3

                               WITNESSES

Doud, Hon. Gregg, Chief Agricultural Negotiator, Office of the 
  United States Trade Representative, Washington, D.C............     5
McKinney, Hon. Ted, Under Secretary for Trade and Foreign 
  Agricultural Affairs, U.S. Department of Agriculture, 
  Washington, D.C................................................     6
Johansson, Robert, PH.D., Chief Economist, U.S. Department of 
  Agriculture, Washington, D.C...................................     6
                             
                             ----------                              

                                APPENDIX

Prepared Statements:
    Doud, Hon. Gregg.............................................    38
    McKinney, Hon. Ted...........................................    41
    Leahy, Hon. Patrick..........................................    46

Question and Answer:
McKinney, Ted:
    Written response to questions from Hon. Pat Roberts..........    50
    Written response to questions from Hon. Debbie Stabenow......    53
    Written response to questions from Hon. Patrick Leahy........    57
    Written response to questions from Hon. Heidi Heitkamp.......    59
    Written response to questions from Hon. Tina Smith...........    59
Johansson, Robert, Dr:
    Written response to questions from Hon. Debbie Stabenow......    61
    Written response to questions from Hon. Patrick Leahy........    64
    Written response to questions from Hon. Tina Smith...........    65
Doud, Gregg:
    Written response to questions from Hon. Pat Roberts..........    67
    Written response to questions from Hon. Debbie Stabenow......    70
    Written response to questions from Hon. Patrick Leahy........    72
    Written response to questions from Hon. Michael Bennet.......    72
    Written response to questions from Hon. Tina Smith...........    75

 
                          PERSPECTIVES ON U.S.
                           AGRICULTURAL TRADE

                              ----------                              


                      Thursday, September 13, 2018

                              United States Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:11 a.m., in 
room 328A, Russell Senate Office Building, Hon. Pat Roberts, 
Chairman of the Committee, presiding.
    Present: Senators Roberts, Boozman, Hoeven, Ernst, 
Grassley, Thune, Daines, Fischer, Hyde-Smith, Stabenow, Brown, 
Klobuchar, Bennet, Gillibrand, Donnelly, Casey, and Smith.

 STATEMENT OF HON. PAT ROBERTS, U.S. SENATOR FROM THE STATE OF 
KANSAS, CHAIRMAN, U.S. COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    Chairman Roberts. Good morning. I call this meeting of the 
Senate Committee on Agriculture, Nutrition, and Forestry to 
order.
    The last couple of years have been very busy for members of 
the Senate Ag Committee as we have worked hard to produce a 
2018 farm bill that will provide certainty and predictability 
for United States farmers, ranchers, growers, and everybody up 
and down the food chain.
    As I have traveled Kansas and other areas around the 
country, having a farm bill in place certainly tops the list of 
concerns that I hear about, and the Conference Committee is 
doing our work, our very best to get a bill to the finish line 
as soon as possible.
    Along with that, I also hear about trade. I hear from wheat 
growers about the need for market access to sell what they have 
produced. I hear from beef producers about barriers to trade 
that are preventing their product from entering an export 
market. I hear from producers all across the agriculture 
industry and all across our value chain about how trade 
policies impact their prices, their decisions, and their 
livelihoods.
    These are not new concerns. The United States has long had 
to work to overcome barriers to trade around the world. 
Sometimes those barriers are regulations not based on sound 
science. They might impact specific regions or products. 
Sometimes barriers are foreign governments that consistently 
choose not to adhere to or abide by the same rules to which we 
all have agreed.
    We need to hold our trading partners accountable, but I am 
concerned that some of the trade actions we have seen in recent 
years are causing uncertainty and unpredictability for the 
agriculture industry. On top of already low prices, the 
agriculture sector has seen immediate negative impacts as a 
result of retaliatory trade actions.
    As time goes on without resolution the concern of losing 
long-term market access only grows. I know that Secretary 
Perdue and the Department of Agriculture also recognize the 
need for long-term certainty and have made efforts to provide 
temporary relief to our hardworking producers.
    For years, the United States has worked to establish itself 
as a reliable supplier around the world through domestic 
agriculture policies, like the farm bill, and through strong 
international trade policies. Free trade agreements, including 
CAFTA, Korea, and many others, have boosted the agriculture 
economy and supported broader U.S. economic growth. And, of 
course, there is NAFTA.
    In the early 1990's, as Ranking Member of the House 
Agriculture Committee, I traveled with my dear friend Chairman 
Kika de la Garza of Texas to build support for the brand-new 
North America Free Trade Agreement, or NAFTA. At that time the 
total value of U.S. agriculture exports was $43 billion. Since 
1994, when NAFTA went into force, the value of U.S. agriculture 
exports to Canada has increased by 271 percent, and to Mexico 
by 305 percent, and in 2017, the total value of U.S. 
agriculture exports was over $138 billion.
    Let me repeat that. Over the time that NAFTA has been in 
force, the total value of U.S. agriculture exports has 
increased from $43 billion to over $138 billion. I have been 
encouraged to hear that the effort to modernize and strengthen 
NAFTA has been progressing. The announcement a couple of weeks 
ago that the U.S. and Mexico had reached an agreement that will 
preserve the trading relationship the agriculture industry 
already enjoys was certainly very welcome news--the light at 
the end of the tunnel, if you will. I know that our team at the 
Office of U.S. Trade Representative is working hard, even as we 
speak, to bring our friends from Canada into the agreement as 
well. I hope that we hear news on a strong NAFTA agreement very 
soon.
    Progress on NAFTA is extremely important, but equally so is 
the need for the United States to aggressively continue 
pursuing new free trade agreements all around the world. Simply 
put, the entire food and agriculture value chain relies on that 
effort.
    This was particularly recognized in the last farm bill 
process when Congress, led by this Committee, created the 
position of the Under Secretary for Trade and Foreign 
Agricultural Affairs at the Department of Agriculture. I thank 
Secretary Perdue for implementing this new position, and, Under 
Secretary McKinney, thank you so much for your willingness to 
lead these efforts and for joining us today.
    Ambassador Doud, it is great to have you at the USTR 
working on behalf of agriculture. Welcome back to the 
Agriculture Committee, your former stomping grounds.
    Thank you to Rob Johansson, Chief Economist at the 
Department of Agriculture, for being willing to share your 
expertise this morning as well. I look forward to hearing from 
all of you on your perspectives on U.S. agricultural trade.
    With that, I recognize Senator Stabenow for any remarks she 
might have to make.

STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM THE STATE 
                          OF MICHIGAN

    Senator Stabenow. Well, thank you, Mr. Chairman, for 
holding this hearing to discuss what we know is one of the most 
pressing issues facing agriculture. I also just want to 
indicate my gratitude and thanks for your leadership as we are 
continuing to work hard to get a farm bill done. I appreciate 
very much our working relationship on behalf of the Senate.
    I also would note that even though the Senate completed its 
voting last night, members are here rather than on planes 
because of the importance of this subject. This is critically 
important to all of our producers. So, Ambassador Doud and 
Under Secretary McKinney and Dr. Johansson, welcome. It is good 
to see you again.
    We all know that our farmers are no strangers to 
uncertainty. They experience it every day when they check the 
weather forecasts, when they look at the markets, when their 
crops are challenged by invasive pests and diseases. On top of 
all that, there are now more unknowns around agricultural 
exports and trade.
    Mr. Chairman, you and I have worked together on this not 
only here but as senior members of the Finance Committee, and 
we sit in a lot of meetings where we are bringing agriculture's 
needs forward. Ahead of this hearing, I had a call with 
agriculture leaders from across Michigan to hear directly from 
them, and no surprise, I heard loudly and clearly that our 
farmers need markets in order to be successful, and there are 
impacts that are occurring right now because of the 
uncertainty.
    Agricultural exports add over $8.4 billion to the U.S. 
economy each year, while supporting more than 1 million 
American jobs on and off the farm. We recognized this in the 
Senate farm bill by providing permanent expanded investments 
for critical trade promotion initiatives that open new markets 
to American-grown agricultural products. This kind of long-term 
market development has helped Michigan-grown crops like 
cherries and navy beans make it onto plates all across the 
world.
    However, retaliatory tariffs are putting these trading 
relationships and so many more in jeopardy. It is estimated 
that American dairy farmers will take a $1.5 billion hit this 
year due to tariffs imposed by Mexico and China. That is on top 
of the $40 million that Michigan dairies lost in income last 
year due to Canada's unfair Class 7 pricing system.
    Our farmers are also feeling the impact indirectly. When 
Washington State can no longer ship their apples to China, it 
makes it harder for Michigan apple growers to be able to 
compete at home.
    To address the impact of the tariffs, the administration 
has proposed up to $12 billion in emergency aid for some 
farmers--some farmers--affected. The reaction from many of the 
farmers I have spoken with is not surprising. They want trade, 
not aid.
    While I look forward to hearing more about the details and 
the methodology behind this package, we must acknowledge that 
temporary solutions only go so far. We need to be mindful of 
the long-term impacts for agriculture. Producers in my State 
are concerned that current and future administrative actions 
could result in agriculture permanently losing important 
trading partners. I agree that we need strong, meaningful trade 
enforcement when countries like China break the rules. I have 
certainly been out there strongly and vocally on that. I also 
agree that it makes sense to update--and I also agree it makes 
sense to update NAFTA. A lot has changed since its inception in 
1994. There is certainly room for improvement in a number of 
areas when it comes to certainly dairy in Canada and others. 
However, all negotiations must be done thoughtfully, looking at 
the long-term impact. We also need to get them done so there is 
certainty.
    Mr. Chairman, you and I have urged the administration to 
get it right. American farmers cannot be collateral damage. 
There are many actions this administration can and should take 
now that will help our farmers with long-term stability, not 
just short-term relief, from trade negotiations that affect 
exports to stopping unfair competition from imports. I intend 
to raise several of these issues today as well as in writing to 
each of you.
    The bottom line is that agriculture should not be an 
afterthought when it comes to trade, which is why we are here, 
and all of us care deeply about this. So I look forward to 
hearing from our witnesses, and we are anxious to know how we 
can work with you to ensure our farmers are not left behind.
    Thank you, Mr. Chairman.
    Chairman Roberts. I thank the Senator. Welcome to our panel 
of witnesses before the Committee as of this morning.
    Our first witness is Ambassador Gregg Doud, who serves as 
our Chief Agricultural Negotiator in the Office of U.S. Trade 
Representative. Gregg was raised on a farm in Mankato, Kansas, 
America, and graduated from Kansas State University, formerly 
the home of the ever optimistic and fighting Wildcats. From his 
time working to develop markets for the U.S. Wheat Association 
and later the National Cattlemen's Beef Association, he 
certainly has an understanding of trade's impact on agriculture 
and, finally, he worked on another important issue, something 
called a ``farm bill'' as a staffer on the Senate Ag Committee 
during my time as Ranking Member. With his notable experience 
with global agricultural trade, I am confident that he has and 
will continue to represent the voices of farmers and ranchers 
in his current role at the USTR. Ambassador Doud, welcome back. 
I look forward to your testimony.
    Next we have Under Secretary for Trade and Foreign 
Agricultural Affairs Ted McKinney, who coordinates agricultural 
trade across the Department of Agriculture. Under Secretary 
McKinney formerly served as Director of the Indiana State 
Department of Agriculture under then-Governors Mike Pence and 
Eric Holcomb. He also worked for 19 years with Dow AgroSciences 
and 14 years with Elanco as Director of Corporate Global 
Affairs. Under Secretary McKinney hails from Tipton, Indiana, 
and is a graduate of Purdue University. Ted is no stranger to 
the Committee as he was here for his confirmation hearings 
almost a year ago. Welcome back, Under Secretary McKinney. I 
look forward to your testimony.
    Additionally, Dr. Rob Johansson has agreed to join our 
witness panel as a resource for any question related to trade 
mitigation payments or activities at the Department of 
Agriculture. Dr. Johansson serves as the Chief Economist at the 
Department. Thank you for joining us today. Gregg, why don't 
you start off?

   STATEMENT OF THE HONORABLE GREGG DOUD, CHIEF AGRICULTURAL 
 NEGOTIATOR, OFFICE OF THE UNITED STATES TRADE REPRESENTATIVE, 
                        WASHINGTON, D.C.

    Ambassador Doud. Chairman Roberts, Ranking Member Stabenow, 
and all members of the Committee, thank you for the opportunity 
to join my colleagues from the Department of Agriculture this 
morning in testifying on the administration's agricultural 
trade policy agenda on behalf of President Trump and Ambassador 
Lighthizer.
    It is impossible to testify today without first mentioning 
the renegotiation of NAFTA and the benefits for U.S. 
agriculture. We are working diligently to bring a successful 
closure to NAFTA that fulfills our Trade Promotion Authority 
requirements. We have recently reached an agreement with Mexico 
that improves on NAFTA in almost every way. On agriculture, it 
maintains our farmers' and ranchers' tariff-free access to the 
Mexican market and modernizes the agreement in important ways 
that will cut red tape on our southern border. Currently, 
Ambassador Lighthizer and my colleagues at USTR are working to 
improve our agricultural situation with Canada, particularly in 
the areas of dairy, poultry, eggs, grain, wine, and other 
products.
    When I first testified to the Senate Finance Committee 
during my confirmation process, I discussed how, in terms of 
U.S. agriculture, we play offense. Since the confirmation of my 
fellow deputies and myself, we are undergoing thorough analyses 
of future FTA partners.
    We are looking into the benefits of potential partners in 
Southeast Asia and Africa, and I look forward to working with 
Congress through the TPA process as these considerations 
evolve.
    Increasing our dialog with Japan continues to be a priority 
for us at USTR. A high-level delegation of Japanese officials 
came to USTR last month to discuss ways to expand and improve 
our bilateral trade.
    These discussions are continuing, and we fully recognize 
the importance to U.S. agriculture of expanding market access 
into Japan. We are determined to put our producers and 
agribusinesses on a level playing field with other countries, 
such as Australia, Canada, and the European Union.
    In July, President Trump and European Commission President 
Juncker launched an initiative to promote more free, fair, and 
reciprocal trade. We understand that there are many 
sensitivities surrounding agricultural trade, but including 
agriculture in any negotiations with the EU remains a priority 
for this administration. Currently, the United States runs an 
agricultural trade deficit of over $15 billion with the EU, 
which is partly indicative of the scope of market access issues 
and nontariff barriers for U.S. agriculture into the EU.
    In May, I traveled to Geneva to deliver the United States' 
first ever counter-notification to the WTO's Committee on 
Agriculture concerning India's market price support for rice 
and wheat. Every rice-and wheat-producing country around the 
world should be concerned about the trade effects of India's 
trade-distorting domestic supports.
    At the WTO, we are pushing forward the largest agricultural 
disputes in history against China for its market price support 
policies and unfair administration of its tariff rate quotas. 
We estimate that China has exceeded its de minimis levels of 
domestic support for rice, wheat, and corn by some $100 
billion. We also estimate that if China had administered its 
TRQs for rice, wheat, and corn according to its WTO 
commitments, they would have imported billions more in rice, 
wheat, and corn from all sources. We currently have seven 
offensive WTO disputes exclusively for U.S. agriculture and six 
more on retaliatory duties by our trading partners on 
agriculture and other products.
    Under section 301 of the 1974 Trade Act, USTR launched an 
investigation into China's unfair technology transfer regime. 
In response, USTR implemented tariffs on $50 billion of Chinese 
imports, while another $200 billion is under active 
consideration. These tariffs are intended to address 
longstanding unfair and discriminatory Chinese trade and 
investment practices with respect to intellectual property and 
to encourage China to eliminate its harmful behavior and adopt 
policies that will lead to fairer markets for all citizens.
    The correct response would be for China to change its 
unfair and discriminatory IP practices, and until then the 
President is committed to having the backs of our farmers and 
ranchers by working to address the damage inflicted by China's 
unjustified retaliatory actions.
    Finally, I am disappointed that in recent months our 
trading partners have decided to retaliate against nearly $30 
billion of our $143 billion in agricultural exports following 
necessary actions taken under our trade laws to defend our 
national security or to respond to unfair trade practices. We 
are taking action at the WTO to counter this unjustified 
retaliation.
    I often tell people that the easy issues in agriculture 
were resolved a long time ago. For example, earlier this year 
USTR and USDA announced market access to Argentina for U.S. 
pork and poultry to Morocco. These are longstanding issues. 
Under Secretary McKinney and I will continue to work closely 
together to coordinate our efforts to expand upon our $143 
billion in ag exports, and I thank the members of this 
Committee for their time today, and I look forward to answering 
your questions.

    [The prepared statement of Ambassador Doud can be found on 
page 38 in the appendix.]

    Chairman Roberts. We thank you for your testimony, Gregg.

 STATEMENT OF THE HONORABLE TED McKINNEY, UNDER SECRETARY FOR 
  TRADE AND FOREIGN AGRICULTURAL AFFAIRS, U.S. DEPARTMENT OF 
                 AGRICULTURE, WASHINGTON, D.C.;

 ACCOMPANIED BY ROBERT JOHANSSON, PH.D., CHIEF ECONOMIST, U.S. 
            DEPARTMENT OF AGRICULTURE, WASHINGTON, D.C.
    Mr. McKinney. Thank you, Mr. Chairman, Ranking Member 
Stabenow, and members of the Committee. It is good to be back 
with you.
    I am pleased to appear before you and welcome the 
opportunity to discuss the efforts of USDA on behalf of U.S. ag 
exporters. First, I must thank the President and Secretary 
Sonny Perdue for their faith in me to take on this first-ever 
role as Under Secretary for Trade and Foreign Agricultural 
Affairs and thank this Committee for creating the opportunity 
for this position in the 2014 farm bill, and Secretary Perdue 
for making it happen.
    First, about the mission area I lead, the mission area 
promotes ag exports, works to reduce trade barriers, and opens 
new markets for farm products, all in collaboration with our 
friends at USTR and other agencies. My area includes the 
Foreign Agricultural Service and now the U.S. Codex 
Alimentarius Office.
    As Under Secretary, I embraced the charge from Secretary 
Perdue to be American agriculture's unapologetic advocate 
around the world, and since my confirmation, I have done my 
best to earn that Million Miler Club participant that Secretary 
Perdue expects. I think I am at about 300,000 right now.
    My travels began 2 weeks after the confirmation when we led 
a full ag trade mission group to India. Since then I have been 
to Mexico, Central America, Colombia, Europe, Brazil, Japan, 
Dubai, China, Vietnam, Southeast Asia, and some of these 
twice--all to advance our trade issues and expand exports.
    Last week, as an example, I provided the keynote address at 
Ireland's Ag Science Association, very good and interesting 
group, and prior to that was in Brussels to meet with key 
members of the European Commission. At all of these stops, as 
with all others, I make clear that we seek only free and fair 
two-way trade, always based on science-based decisionmaking, 
and those are all very important.
    Looking ahead, before the year is out, I will lead an ag 
trade mission to South Africa. Simultaneously, my colleagues at 
FAS will lead a similar group to South Africa. Thereafter, we 
will be in the Philippines and Thailand. All told, when the 
year is complete, we will have doubled the number of formal ag 
trade missions from years past, and that does not include the 
bilateral, singular, sort of ``me only'' meetings on bilateral 
trips.
    A bit about ag trade accomplishments. Ambassador Doud 
testified on a couple of these. We are making some headway. 
Last year, these included easing of regulations on U.S. citrus 
into the EU, resumption of U.S. DDGs into Vietnam, reentry of 
U.S. chipping potatoes in Japan, and, very importantly, lifting 
of South Korea's ban on the imports of U.S. poultry.
    In July, Secretary Perdue celebrated the reintroduction of 
pork into Argentina after more than 25 years by slicing a 10-
pound U.S. honey-baked ham. In August, Ambassador Lighthizer 
and Secretary Perdue announced that Morocco has agreed to allow 
commercial imports of U.S. poultry meat and products for the 
first time ever. We continue to work with Gregg and his 
colleague on NAFTA. At any given time, I have got 6 to 20 
people supporting NAFTA and other negotiations, and glad to do 
it. That does not touch many, many more we hope can be 
announced in coming weeks and months.
    A moment on CODEX. With respect to this office, we have 
strengthened the group in numbers. We will add outreach to the 
regions of the world and always will base it on good science 
but with great vigor. I am trying to earn what I said to you 
would be a happy warrior.
    A little bit about mitigation, and you spoke about this, 
Mr. Chairman. In response to unjustified retaliation by China 
in particular and other countries, the President directed 
Secretary Perdue to craft a short-term relief strategy to 
protect agricultural producers while the administration works 
on free, fair, and reciprocal trade deals. As you mentioned, it 
is a $12 billion, three-part mitigation program. Let me touch 
very quickly.
    The first leg of the stool is the Market Facilitation 
Program administered by my colleague Bill Northey and his team 
at the Farm Service Agency. It provides payments to producers 
of certain crops and livestock that are negatively affected by 
these unfair counter-tariffs.
    The second leg involves the Food Purchase and Distribution 
Program that is managed by my colleague Greg Ibach, Under 
Secretary for the ag marketing area, and deals with affected 
commodities.
    The third leg of the stool, the Agricultural Trade 
Promotion Program, will be administered by my team. This is 
$200 million in cost-share assistance--let me repeat that. It 
is cost-share, which is the hallmark of that program. It will 
be made available to eligible U.S. organizations who have 
suffered damage from these unjustified retaliated trade 
activity. That program will focus on new markets and mitigation 
in select existing markets, but more the former than the 
latter. Areas of work include advertising, PR, points of sale 
demonstration, trade fairs, exhibits, market research, and 
other activities. Our group does this very well through a 
similar programs that you know well, the Market Access Program 
and the Foreign Market Development Program.
    In conclusion, the agricultural exports contribute to 
prosperity in and well beyond rural America. It is a privilege 
to serve as a strong advocate for U.S. agricultural worldwide.
    Mr. Chairman, that concludes my statement. I would be 
interested and pleased to answer any questions.

    [The prepared statement of Mr. McKinney can be found on 
page 41 in the Appendix .]

    Chairman Roberts. Thank you very much Dr. Johansson.
    Mr. Johansson. Thank you, Chairman and Ranking Member. I am 
happy to answer any questions that you may have regarding the 
Marketing Facilitation Programs or on the Food Purchase and 
Distribution Program.
    Thank you.
    Chairman Roberts. If only we had more witnesses like 
yourself.
    [Laughter.]
    Chairman Roberts. Ambassador Doud, I have been pleased to 
hear of progress on finalizing a NAFTA agreement, I hope, that 
preserves the strong trading relationship between the United 
States, Mexico, and Canada, if we can bring them along. There 
has been a great deal of discussion surrounding the success of 
the existing NAFTA agreement.
    Generally for agriculture, the benefits of the agreement 
are without question. There are examples, however, such as 
restrictive policies, more especially with Canada, on grain 
grading standards or dairy where there is room for improvement. 
With ``Do no harm'' remaining the top priority of the ag 
sector, what opportunities do you see for farmers and ranchers 
and growers in a new and improved NAFTA?
    Ambassador Doud. Thank you, Mr. Chairman. You know, the 
first thing you have to do in these kinds of discussions is 
look toward the future and, you know, it has been 25 years 
since NAFTA. We have to think about what things are going to 
look like in another 25 years. I think the first piece of this 
is obviously we keep the tariffs at zero. Obviously, you know, 
the mantra of ``Do no harm'' has been throughout this 
discussion. In sanitary and phytosanitary land, the issues that 
we deal with so very often between USDA and USTR in 
agriculture, we have got to set the stage to improve the 
discussion and the dialog in NAFTA and around the world. I 
think we have done that with the additional ability to have 
conversations with regard to SPS and also, in particular, with 
Ag biotechnology. The goal with ag biotechnology is to not talk 
about current technology, but to anticipate what we have coming 
around the corner in terms of the new gene-editing technology, 
CRISPR, et cetera, and those are the areas that we work very 
hard on with Mexico in this agreement.
    Chairman Roberts. Under Secretary McKinney, beyond 
strengthening current agreements, we should be aggressively 
seeking new trade agreements with countries like Japan, 
Vietnam, and the United Kingdom, and others as well. How do you 
view the strategy on new free trade agreements working 
alongside what we are currently facing in market loss due to 
retaliatory tariffs?
    Mr. McKinney. Thank you, Mr. Chairman. Well, there are two 
or three points.
    First, I think we have already exhibited some success. Most 
of the countries that you heard me cite that we visited are 
ones we have not normally paid a lot of attention to. Let me 
cite the ag trade mission to Guatemala. I went thinking this 
would be a nice trip; we would have some good results. The 
visit to Guatemala, Honduras, and El Salvador set the all-time 
record high in sales of agricultural products from across the 
U.S. in the history of the Foreign Agricultural Service, so 
much so that we had to set the top two aside to validate that 
they got the message to estimate conservatively what their 
sales might look like over the next 12 months. Now, not all are 
this way, but we are seeing record attendance and record sales 
through these trade missions. So that is the first thing.
    The second thing is we look proactively as we go on 
offense, as Ambassador Doud said. You will be pleased to know 
that, as we cited and listed the candidate countries we want to 
go pursue for free trade agreements or bilaterals, the good 
news it was almost identical to the list that Gregg and his 
team cited. I think if we flipped one or two countries, they 
would have been identical. Certainly the top five were in the 
same category. We took that as positive. Many of the countries 
I listed are the ones that we are going to followup later or 
USTR will take the lead on. So we are cultivating those and 
developing them.
    Finally, you know, I think that there is some evidence that 
we are seeing some growth in the countries that we have already 
opened. Beef and pork, for example, into South Korea after the 
KORUS agreement has been at record levels, and this is the 
pattern we would like to emulate across the board.
    So I hope that we are already starting to pave the way with 
many of these countries that we need to go back to. For sure, 
some will be long and arduous. I cite India--great country, one 
we must invest in. I think for a while they are going to be 
very difficult, with a tendency to throw tariffs up, as are 
many others.
    This is where I appreciate the strong hand of the 
President, Secretary Perdue, and Ambassador Lighthizer. People 
know that we mean what we say, that we believe that GSP, for 
example, is a serious thing that cannot be abused, that when 
you introduce nontariff trade barriers, which is very, very 
common, there is a consequence.
    So I think we are rounding a corner, and I am very 
optimistic for the future.
    Chairman Roberts. Do you have any comment on this, 
Ambassador Doud?
    Ambassador Doud. I think Under Secretary McKinney summed it 
up very well, Senator.
    Chairman Roberts. I want to get into trade mitigation here 
for just a moment. The trade assistance package that the 
Department is implementing includes the Agricultural Trade 
Promotion Program. ATP--I beg my colleagues' deference here in 
going over time; I know you will forgive me--will assist 
exporters in market access around the world. What I want to 
know is, this program, does it complement existing export 
programs? You mentioned the Market Access Program or the 
Foreign Market Development Program. How will you ensure 
resources are not duplicative? Real quick, Ambassador.
    Mr. McKinney. Sure, I can be quick.
    Chairman Roberts. Pardon me. Under Secretary.
    Mr. McKinney. That is okay. I have a twin brother, so I 
answer to ``Hey, you.''
    [Laughter.]
    Mr. McKinney. They are highly complementary, and let me 
remind you, if you have not already heard, the Market Access 
Program and now the complementary program that we are 
introducing are beloved. They might just be one of the finest 
creations of U.S. Government. They are that highly regarded.
    What people are looking at is, first and primarily, where 
can these moneys be applied where we have not had the funds to 
invest in the future. I heard that many people lobby you folks 
for additional funds to MAP and FMD. So consider this as an 
opportunity for folks to finally dive into export markets where 
they have not been or at least not at the presence they would 
like to. I think that is the first and primary focus. And, for 
sure, some would like to dedicate some of these new funds--the 
``surge,'' if I can use that word--into maybe mitigating some 
lost sales or some hurt feelings or whatever the case might be 
in existing markets.
    So as we speak, there is a lot of discussion going with all 
the commodity organizations you might imagine, and they include 
the organizations and the products that come from all the farms 
and ranches in your States, and we are working with them. We 
encourage creativity, new markets, some mitigation, and 
products or programs that will work full-time.
    So certainly this is very much like the Market Access or 
Foreign Market Development Program, but boy, oh, boy, is it 
exciting for them to finally get into some territories they 
have not experienced yet--at least not very much.
    Chairman Roberts. Senator Bennet had to leave in that he is 
booked on a plane to Colorado, but he had this question for Dr. 
Johansson, and, Under Secretary McKinney, you can weigh in if 
you want, which means I have another 2 minutes.
    The largest program in the administration's trade 
mitigation package is the Market Facilitation Program. Can you 
offer some background on how the Department determined the 
methodology and the payment rates for the different commodities 
eligible for the program? I say this, when the Secretary called 
me, Secretary Perdue, indicating that there would be a program 
like this, even though many groups had come to the White House 
and said we do not want aid, we want trade, and that has sort 
of been the hallmark. We do have this mitigation program, and I 
think that is probably the best description. How is the 
methodology and the payment rates for different commodities 
eligible for the program? The reason I ask that is I told the 
Secretary that once you announce a program like this, you are 
going to have a heck of a time stopping it for the next year 
and the next year and the next year, and every possible farm 
organization and commodity group will complain that it is not 
equal to their circumstance, which I have heard virtually from 
every commodity organization and farm organization I know of. I 
think probably everybody here has.
    Could you elucidate on the methodology and how you came to 
that?
    Mr. Johansson. Thank you, Mr. Chairman, and, of course, 
Senator Bennet for his question. I am sure we have heard a 
similar question and ideas about how such a program could be 
designed from a variety of commodity groups, as you can 
imagine, as you mentioned.
    So putting such a program together, we were faced with the 
objective of trying to be fair across commodity groups, as fair 
as possible. We were also constrained a little bit by some of 
the existing tools that we have for developing such a program. 
So, as you know, we utilized authorities under CCC Section 5, 
and that has certain prescriptions on how we should go about 
setting up such programs.
    I think the main point that I want to make today--and I 
will point out that we are going to be publishing a white paper 
today and putting it on the USDA Office of the Chief Economist 
website that explains this fully. You know, we have been trying 
to do that in in-person meetings, but we have written it down, 
and we are going to be putting it out shortly.
    This is a trade program, retaliatory tariffs, that we are 
trying to address. We were not trying to address the vast array 
of other trade issues that have come up already today. This was 
specifically targeted to the 232 and 301 retaliatory tariffs, 
and so we wanted to make sure that our program was able to 
reflect those tariffs and those tariff levels from the 
countries that are levying those tariffs on the specific 
commodities that are listed under those tariff regimes. We 
wanted to do so in, as I mentioned, an equitable and consistent 
manner across the different commodity groups.
    So there are a lot of different models that can be 
developed from an economic perspective to reflect trade damage. 
We wanted to focus on a trade damage approach, which is similar 
to what we would normally use if we were to go and support USTR 
and actions at the WTO in Geneva when we go there to argue that 
a country's actions are unwarranted and we are claiming damage 
from those actions.
    In that sense, we used a trade model that reflects 
essentially, as Senator Bennet pointed out, those commodities 
that were exported to the countries that are retaliating, are 
going to show the highest trade damage effects from these 
tariffs. That is why you see such a large component of the 
program being directed to producers of soybeans since soybeans 
was our largest export to China and, on the other hand, for 
producers of corn, for example, we do not sell as much corn for 
a lot of reasons understandably, to the retaliating countries, 
the EU and China, and that is why the payments to corn 
producers are so much smaller.
    So, essentially, again, we just wanted to be consistent. We 
did know that for the majority of this program, we were going 
to have to do a rulemaking. In that sense, we also needed to 
follow the prescriptions that we would normally have to go 
through in order to publish a rule in the Federal Register and 
incorporating interagency comments from OMB as well as other 
White House offices, USTR included.
    So I will stop there and see if we have any follow-up 
questions from some of the other members here.
    Chairman Roberts. Obviously, Senator Bennet's time has 
expired, but Senator Hoeven just left. He wanted 5 minutes and 
whispered to me the question that he wanted to be answered. 
Senators were up there at the White House on the day that the 
President announced the decision along with the President of 
the European Common Market that they had decided no tariffs 
would be the best policy, and we all applauded that. Then we 
went around the room, and Congressman Newhouse from Washington 
pointed out he was a cherry producer, and he lost his whole 
crop. Then I find there is nothing for cherries. Now, I am not 
here to advocate cherries in particular, but Senator Stabenow 
was on the floor. She gets that from everybody on her side of 
the aisle. I get it from my side of the aisle with regards to 
commodity versus commodity versus commodity.
    So I am very interested in your white paper. I know you are 
doing the best you can, and it is a difficult job. You can 
understand our concern when people come and say, ``Well, wait a 
minute.'' Then, of course, you can get on the exclusion or the 
addition list, whichever one we are talking about, of which 
there must be at least a thousand or two already on that list.
    Senator Stabenow?
    Senator Stabenow. Well, thank you, Mr. Chairman. You do a 
good lead-in because I actually do advocate for cherries as 
well as a wide variety of commodities that we grow in Michigan. 
And, of course, we care about what is happening all over the 
country.
    I do want to say thank you--my question was going to be 
about releasing the methodology and assumptions in calculating 
the amount of trade mitigation, and so I will look forward as 
well, I know my growers do, in terms of seeing the white paper.
    First, for our USTR Ag Negotiator, Gregg Doud, thank you 
for all of your efforts, Ambassador, and I want to thank you 
and Ambassador Lighthizer for considering the cherry industry's 
petition to revoke Turkey's unfair duty-free access for imports 
of cherry juice. We have a huge issue going on right now for 
that industry, as you know. I hope we can expect a timely and 
favorable decision on this critical issue.
    Let me talk about and ask you a question about NAFTA. We 
have heard about the initial agreement with Mexico, which 
contains a zero tariff on U.S. agricultural exports to Mexico. 
However, many of our U.S. agricultural products, including 
dairy and apples and pork, face substantial tariffs in Mexico 
due to the steel and aluminum tariffs. What is the path forward 
and timeline to reach an agreement with Mexico to resolve these 
tariffs in a key export market for our U.S. farmers?
    Ambassador Doud. Senator, I appreciate the question. The 
answer is, first of all, that Section 232 tariffs are 
administered by the Department of Commerce----
    Senator Stabenow. Sure.
    Ambassador Doud.--not by USTR, so that is not really 
something that is in our job jar at----
    Senator Stabenow. I hope you will weigh in, though, because 
of what is happening.
    Ambassador Doud. I appreciate your comments. My 
understanding is that part of the discussion is on a separate 
track and not a part of what we are working on right now.
    Senator Stabenow. Really? Okay. Because, unfortunately, all 
of this is coming together from a producer's standpoint, as you 
know. It does not matter which department, which agency, what 
effort. It lands on them. So they are deeply concerned.
    I want to talk a little bit more and ask Dr. Johansson 
about the Market Facilitation Program, and I am anxious to see 
the methodology and so on. I had send the Department and the 
Secretary a list of the commodities in Michigan and their 
concerns in a number of ways--tariffs, nontariff barriers, and 
a number of things that are happening that I had hoped would be 
considered. They have pushed back on me about the fact that--
about the fairness of what is happening already, and here is 
what I get asked: Through the Market Facilitation Program to 
assist producers harmed by trade disruptions, USDA is planning 
to provide $277 million in payments to our cotton producers. 
This is despite strong cotton prices in 2018 and recent 
forecasts that cotton prices will continue to increase over the 
coming months.
    In March, USDA used the same CCC charter act authority to 
make $150 million in direct payments only to cotton farmers. 
Certainly, you know, this is not about picking on cotton 
farmers, but we have a lot of folks that have been hit. At the 
same time, commodities that we produce in Michigan--dairy, 
corn, dry beans, fruit, and others--continue to struggle with 
very low prices and receive less help through the 
administration's Trade Assistance Plan.
    So can you explain how USDA determined that a commodity 
with increasing prices that received significant assistance 
earlier in the year should receive more assistance than the 
other commodities who have seen their prices go down?
    Mr. Johansson. Thank you, Ranking Member, for the question. 
Obviously, as I mentioned, there are a lot of different ways 
that we could have used estimation techniques to develop the 
program. This particular program that we are talking about 
today, the Trade Facilitation Mitigation Programs that the 
Department has put together, as Under Secretary McKinney 
mentioned, the three different programs, and some are intended 
to address pieces that the others may not.
    In the case of prices, for example, as you mentioned, a lot 
of the commodity groups have come in to talk to us, have 
pointed at perhaps how much prices have changed since the late 
spring, early summer period when the countries that were 
retaliating announced their activities, and prices have fallen 
dramatically since that point.
    Now, of course, we have seen a lot of other reasons why 
prices may have fallen, whether that be through increased 
production or other activities or weather conditions in other 
countries, for example.
    So when we put this program together, you know, certainly 
one way we could have done it is by keying off of prices. We 
decided not to use the price-driven methodology but to look at 
gross trade damages. Trade damages are going to be simply 
higher for those commodities that have exported significant 
quantities to China or to the other countries that are 
retaliating. And, of course, we sell a lot of cotton to China, 
and that is the reason why we would expect these tariffs to 
significantly impact cotton exports to China.
    So because we use the trade--sort of the WTO approach of 
looking at trade damages and not necessarily looking 
specifically to prices, we show damages from the tariffs to the 
232 and 301 actions to be what they are for soybeans, cotton, 
sorghum, and down the list, including some of the specialty 
crops and fruit and-commodities.
    That being said, going forward into the fall, as we see 
harvests continue and we see market conditions change, as you 
will note, we announced for the Market Facilitation Program in 
particular, the first phase of the program, and the second 
phase if needed will be developed over the coming months and 
announced in December, and that may include consideration of 
other factors such as prices, trade, other tariffs that may 
occur, or as some of the other Senators are likely to ask later 
today, basis effects that you may see in different parts of the 
country.
    So, again, hopefully that answers your question.
    Senator Stabenow. Well, it--sort of. I appreciate the 
answer. I guess I would say I am still confused by an area 
where we see prices continuing to go up, maybe not as high as 
they would have gone, but are still going up, and we have so 
many producers where it is actually going down in real terms.
    I have one more quick followup, though, Dr. Johansson, to 
you. Not every commodity affected by retaliatory tariffs has 
faced the same impacts from trade disruptions. For example, 
many producers of perishable commodities such as dairy and 
specialty crops were impacted immediately while other producers 
may have utilized forward contracting or futures markets to 
sell their crop before prices fell. How were these factors 
considered in allocating assistance under the Tariff Mitigation 
Plan?
    Mr. Johansson. Now, I think your questions are raising a 
lot of the real key considerations that make developing this 
program and launching it in an equitable fashion as possible 
very difficult. There are a lot of considerations such as, you 
know, we wanted to put the program out there in time for 
producers to respond to in a fairly rapid fashion. That is why 
the Secretary announced this program at the beginning of 
September. We could have waited over time to see how sales and 
harvests had been affected, but we wanted to try and get these 
mitigation measures in place as quickly as possible. I would 
say that we are trying to move forward on the perishable 
commodities in a similar fashion. We are working to address, 
for example, almonds and cherries. We are still working on 
those since they were a little bit more difficult to work into 
two of three types of programs that we had. And, of course, all 
of the commodities are eligible and are encouraged to work with 
Under Secretary McKinney and his team on developing new 
markets, and I would maybe ask Under Secretary McKinney if he 
wants to add anything to that effect.
    Mr. McKinney. Just that we have been meeting with I think 
every commodity group known to man and woman alike, and they 
are answering the challenge of being creative and looking at 
those new markets. Again, it is open to all the cooperators who 
have been negatively affected, so that certainly includes, 
well, many--I would say all of the crops that I am familiar 
with in Michigan.
    So we will have to see how they come out because we have 
not finalized and have not received their final proposals. 
Those are due November 2. We will then take until early January 
and then funds will be released. I did not add that in my 
testimony.
    Senator Stabenow. Thank you very much. I will add some 
additional questions in writing, but as you know, it is not 
just retaliatory tariffs that are affecting us, but all of the 
other things that are happening around that. So I would urge 
you to look at all of those impacts. Thank you.
    Thank you, Mr. Chairman.
    Chairman Roberts. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.
    Today's hearing is so important in regard to trade. It is 
all about trying to provide some certainty to our farm 
community that is struggling so, so very much. Then also the 
other thing that we have got going on is the farm bill, and I 
want to thank Senator Stabenow and Senator Roberts of providing 
the leadership that we need to get that done. Again, that is 
all about certainty and trying to put the safety nets in place. 
So we do appreciate you and, even more importantly, your 
staffs, for their hard work. We know who actually does the work 
around here. They are working hard.
    I just got off my ag tour a couple weeks ago, traveling all 
around. We do that every year in Arkansas. Certainly trade was 
right at the top, you know, regarding in the sense that 
always--it does not matter what the situation. We have got a 
very difficult situation now. The retaliatory actions are 
always against agriculture first, and that is the situation 
that we are in.
    So I think, you know, the farmers in Arkansas are willing 
to work with the administration. They understand, you know, 
that we need not only free trade but fair trade. On the other 
hand, they are anxious to wrap this up as quickly as possible.
    The other thing--and our farmers are smart. They understand 
that we have got 95--we have got five customers in the United 
States. We have got 95 all over the world that we need to be 
selling to, people like Japan, people like Cuba, things like 
that.
    So can you tell us, Ambassador Doud and Under Secretary 
McKinney, you talked about the trade relationship with Japan. 
Can you expand on what the next steps should be in regard to 
getting a market like that in place? Do you see an opportunity 
for the U.S.-Japan bilateral free trade agreement to come to 
fruition?
    Ambassador Doud. Senator, this is probably, other than 
NAFTA, top of mind. Our concern is that I believe it is in 
April of next year that Europe, their trade agreement with 
Japan will enter into force. Obviously, Canada and Australia 
have trade agreements with Japan as part of the TPP apparatus. 
So we are right here right now, but sometime next year, those 
three countries' tariffs are going to go down here, and we are 
going to still be up here. The U.S. industries are already 
coming in to see me saying, ``We need to address this.'' Let me 
assure you, we at USTR completely agree. There is not anyone in 
the building that does not want to do a trade agreement with 
Japan. We understand this is a sensitive issue. We understand 
Japan would like us to be a part of TPP. We are committed to 
engaging with this, and I know for Ambassador Lighthizer, this 
is a top priority issue for him and the administration, and we 
are going to continue to work on it. We have got to get there 
at some point, definitely.
    Senator Boozman. What other countries hold the greatest 
potential for getting an agreement worked out?
    Ambassador Doud. When we refer to Southeast Asia, you know, 
the other country that is important to us is Vietnam, 
obviously, and if you do Vietnam and Japan, that is--we have 
agreements with essentially every other country. That is TPP.
    Another country that is quite interesting is the 
Philippines. You know, as the Chairman knows, I am an old wheat 
guy from Kansas. Even I was surprised to learn that the 
Philippines is our No. 3 market for U.S. wheat today. In my 
mind, Senator, the Philippines is a legitimate top-ten market 
for U.S. agriculture. In a lot of ways--and, Ted, you can talk 
about this--it is probably about where Mexico was 25 years ago. 
You know, we are having conversations with Indonesia, not in 
terms of a bilateral but in terms of overall trade discussions. 
We are very interested in Africa and getting something going 
there. Obviously, down the road next year we will see what 
evolves with the U.K. and Brexit.
    I have to tell you, what I appreciate more than anything 
else is my boss, Ambassador Lighthizer, was in Europe this 
week, and he said here in the Senate when he testified, the 
first thing he said to Commissioner Malmstrom when he was over 
there this week is, ``Agriculture has to be a part of any trade 
discussion.'' That to me is just an incredibly important thing 
for U.S. agriculture. As we all know here, dealing with the 
Europeans in agriculture has been a difficult issue for all the 
time that we can remember, and I cannot tell you how gratifying 
it is for the U.S. Trade Representative to say that the first 
thing in these kinds of discussions.
    Senator Boozman. That is excellent. I think I can speak for 
the Committee that we will help you any way we can in that 
regard.
    Very quickly, because my time is out, but the Iraqi tenders 
regarding rice, we had a situation where in the past they have 
disregarded--we have had bids that were actually lower, better-
quality rice. The Iraqis went with other countries for some 
reasons. We have reached a little bit of an agreement there. I 
guess what I would like is just kind of a yes or no. Will you 
help us hold their feet to the fire in the sense of keeping 
their agreements and making sure that we have a free and fair 
situation in that regard, not only with rice but with whatever 
comes up.
    Mr. McKinney. Yes, always.
    Senator Boozman. Thank you very much.
    Mr. McKinney. I would just in 30 seconds----
    Ambassador Doud. Absolutely.
    Mr. McKinney. You should know that we talk, gosh, at least 
once and usually two or three times a week so that we are 
aligned. Part of the reason for my going to some of these 
countries is we have a little bit more bandwidth, particularly 
with what is going on with NAFTA and all the different other 
countries. So we intend to collaborate fully, still want to 
travel together to one or two locations, and, again, I think--I 
would not want to suggest that there is no business going on in 
some of these countries where we want a new free trade 
agreement or a bilateral or whatever you want to call it. We 
certainly can build on that. So not just the new ones, but I 
tell you, the Guatemala experience that I told you about, there 
are countries where we already have a free trade agreement or 
something of that sort that we can continue to build on. I will 
remind you that when we go in, I tell them that we believe in 
two-way trade. I think there is an intimidation factor out 
there that we have to address. We are most certainly looking at 
two-way trade, and when we get there, I think it is a very 
positive relationship. So we are, once again, looking forward 
to these.
    Senator Boozman. Thank you.
    Chairman Roberts. Senator Klobuchar.
    Senator Klobuchar. Thank you very much. Thank you to all of 
you. I spoke with you earlier today.
    First of all, Minnesota is fourth in the country for ag 
exports. It is very important to us, and certainly being a 
State where we can see Canada from our porch, Canada trade is 
very important. As I have told the Ambassador before, we would 
like to see Canada as part of any NAFTA agreement, so let me 
start with Canada.
    The administration has signaled its intent to prioritize 
ending Canada's Class 7 program, Ambassador, which is 
essentially close the market to U.S. dairy producers as part of 
the NAFTA negotiations. How have you engaged in these 
negotiations to ensure that U.S. dairy producers can once again 
compete in the Canadian market? Is this still a high priority?
    Ambassador Doud. Senator, this is the priority of the 
moment for us in agriculture. I want to take a moment to tell 
you that it has been an extraordinary effort to help Ambassador 
Lighthizer learn dairy. Chairman Roberts, I remember being on 
this Committee and having conversations about learning dairy 
and how difficult that is. Let me assure you that Ambassador 
Lighthizer has--we spent an enormous amount of time working on 
this issue, and in good faith both countries are trying to 
resolve this issue.
    Senator Klobuchar. I understand.
    Ambassador Doud. The challenge is how disparate these two 
systems are between Canada and the U.S., their closed supply 
management system versus our open system. We are working really 
hard to try to manage this, and we are going to do our best.
    Senator Klobuchar. Okay. Turkey, we are No. 1 for turkeys 
in Minnesota. I always like to say that. Are you focused on 
that market as well for turkeys? The other thing would be pork, 
making sure that Mexico and Canada are No. 2 and three markets 
for pork. What is happening with those?
    Ambassador Doud. Yes, Senator, the vernacular in these 
discussions is dairy, poultry, and eggs, and poultry certainly 
includes dairy--or turkey, excuse me. With regard to pork, 
obviously that is a very high priority item as well. It is one 
of our major exports.
    Senator Klobuchar. Good. I know Japan came up earlier, but 
in your testimony you mentioned looking into the benefits of 
potential partners in Southeast Asia, an increasing dialog with 
Japan, a critical market. What is the latest on the 
administration's effort to engage Japan in serious talks about 
a free trade agreement?
    Ambassador Doud. Well, as I indicated in my testimony, we 
had conversations last month. This is an issue that the Vice 
President has directly engaged in, and I believe there will be 
continuing conversations coming up here. This is a very high 
priority issue for us.
    Senator Klobuchar. Okay. The 25 percent duty placed on 
soybeans to China has caused significant disruptions given that 
57 percent of all U.S. soybeans went to China last year. These 
duties have hit my State hard because about 60 percent of our 
State's soybeans are shipped to the west coast. Dr. Johansson, 
when preparing the methodology to determine payments under the 
Market Facilitation Program, was any consideration given to 
regional shipping disparities within each commodity?
    Mr. Johansson. So, yes, that is a great question. Basis 
effects are very obviously complicated to consider, but 
certainly we have been asked to look at that issue. When we put 
the current methodology together, we did not do regional 
effects. There were a number of factors to consider there, 
transportation certainly being one of them; availability of 
storage, storage capacity being another; and availability, as 
you know, of rail shipment capacity to the Pacific Northeast 
relative to barge capacity down to the gulf. Those are all 
factors that we are actively examining and looking at, and we 
will be, you know, continuing to provide the Secretary with 
that type of information going forward.
    Senator Klobuchar. So will you take these unique regional 
impacts into account if USDA determines that a second round of 
assistance is necessary?
    Mr. Johansson. Well, certainly we are continuing to 
consider that. I cannot speak for the Secretary or the 
interagency process, but I would imagine we will bring that 
information to bear in terms of putting together the second--if 
a second phase is required, we will be considering that 
information, yes.
    Senator Klobuchar. Thank you. Under Secretary McKinney, I 
will spare you questions, as my colleagues are waiting, but I 
want to thank you again for your good work and your Minnesota 
connections, which we appreciate.
    Mr. McKinney. Thank you very much.
    Senator Klobuchar. Thank you.
    Chairman Roberts. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair, and thanks to our 
witnesses today for being here. This is a really important 
topic, as you can tell by the attendance at this Committee. 
Trade is something that we are very, very engaged in here in 
the U.S. Congress, and we want to make sure we are doing the 
right thing for our constituents.
    Since the trade spat turned really more into a trade war, 
we have seen our grain prices drop by anywhere from about 15 to 
25 percent. When we look at pork, we have seen their prices 
drop about 25 percent as well. I do want to thank President 
Trump and Secretary Perdue for their commitment to America's 
farmers by providing some relief, but we have heard time and 
time again today trade, not aid.
    So while a lot of our farmers and ranchers will be out 
there cashing those assistance checks, we have to make sure 
that our markets are being opened. So I am encouraged to hear 
that we are looking at Japan and the EU and others, but we have 
got to get them done, folks. So I await the day when we 
actually see that done.
    Dr. Johansson, many farmers across Iowa were really shocked 
when they saw that mere 1 percent--or, excuse me, 1-cent point 
for our corn for the reimbursement or the payment assistance, 
and through the Market Facilitation Program, despite the 
significant losses that we have seen since the trade tensions 
took hold. So we have seen higher tariffs from China that have 
resulted in a 70-percent tax on U.S. ethanol exports, and prior 
to the tariff increases, U.S. ethanol exports to China had been 
up 57 percent year over year. U.S. ethanol is now essentially 
shut out a growing market while China is transitioning to E10. 
So we are really missing out in that area.
    Can you walk me through how the USDA arrived at the payment 
rate for those corn farmers? Did your model calculate for the 
rate for the lost ethanol exports?
    Mr. Johansson. So those are great questions. I will just 
say quickly on the ethanol side, while we did see some 
increases in ethanol exports, China had already taken some 
actions relative to our ethanol exports there that had reduced 
our exports of ethanol to China prior to the 232 and 301 
actions being taken. Now, of course, they are also listed as 
being affected by the tariffs.
    That being said, the amount of ethanol we do sell to China 
would not have been affected specifically looking at the 232 
and 301 actions to a significant degree, and the programs were 
intended primarily to address producers, farmers, and ranchers 
that were producing primary commodities and not on the process 
side.
    Senator Ernst. But it does have a direct effect for those 
corn farmers, though.
    Mr. Johansson. That is right. It certainly would.
    On the corn side, as I mentioned earlier, we looked at a 
trade model that is keying off of 2017 exports to the affected 
commodities, and I will just provide a highlight here. On 
soybeans, for example, the value of soybean exports that were 
being affected by the tariffs was roughly $13.9, $14 billion, 
and on corn, for example, it was $300 million. So there is a 
significant difference between the amount of soybeans and other 
types of commodities relative to corn, just because corn 
shipments to the countries that are retaliating were relatively 
low compared to those other ones, and the methodology that we 
used for the reasons I talked about earlier were focused on 
being consistent across the commodities. We are teeing off of 
our export values to those countries.
    Senator Ernst. Okay. Well, I appreciate that, and, again, 
we would rather have trade, not aid. So we hope that we do not 
have to see a second round.
    Mr. Doud, just very briefly, I met with some pork producers 
from Iowa yesterday, and they are encouraged by the 
administration's announcement regarding the modernized trade 
agreement with Mexico, and we are a large exporter of pork to 
Mexico. So hog prices are at a 15-year low, and what approach 
are we using to alleviate this pressure on the pork producers?
    Ambassador Doud. Well, Senator, I think the biggest thing 
we can do is get NAFTA wrapped up, and we are working on that 
as aggressively as we can, and obviously, another critical 
market for our pork producers is Japan. The Chinese, you know, 
we exported, I think, $1.25 billion worth of pork to China. My 
understanding is that, you know, they keep ratcheting the 
tariffs up there. Some pork was still getting in over the 
tariff because most of that is variety meats. I would say, you 
know, we have seen some really interesting things occurring 
here recently in the lean hog futures contract related to 
African swine flu in China. I think we all need to keep a very 
close eye on that.
    Senator Ernst. We certainly do, and just in wrapping up, 
Mr. Chair, I was on the production floor of a meat processor, a 
pork processor in Iowa just a few weeks ago, and they are 
currently throwing away some very valuable organs that are 
normally imported to China, but because of the tariffs, all of 
that is going to rendering. So a very unfortunate situation for 
those producers.
    Thank you.
    Chairman Roberts. Senator Bennet, I regret to tell you that 
on your way up, you----
    Senator Bennet. I am here to reclaim my time, Mr. Chairman.
    [Laughter.]
    Chairman Roberts. I have already used 5 minutes of your 
time. But out of the goodness of my heart----
    Senator Bennet. You restore my dignity----
    Chairman Roberts. Out of the goodness of my heart and the 
good neighborly process with Colorado and Kansas----
    Senator Bennet. Thank you, my friend.
    Chairman Roberts [continuing]. and since you are no longer 
in the Big 12----
    Senator Bennet. I will not go over my time. I appreciate 
it.
    Chairman Roberts. I recognize the Senator.
    Senator Bennet. I am grateful to you, Mr. Chairman, for 
holding this hearing. As you can see, there is enormous 
bipartisan interest, and I think that relates to the 
uncertainty that has been created here. And, in fairness, it is 
not just that--Senator Ernst called it the ``trade war.'' It is 
also low commodity prices, and in my part of the country 
drought, that is creating really a huge amount of strain for 
our farmers and ranchers.
    My agriculture commissioner the other day said that you 
only get to be 22 once, and a young farmer only gets the chance 
once to decide whether they are going to stay in the business 
or not. This kind of uncertainty really does not help, and our 
adversaries understand that, which is why they are doing what 
they are doing to us.
    I raised this with Ambassador Lighthizer once, and he said, 
``Well, your farmers have my sympathy.'' And I said, ``They do 
not need your sympathy. They need you to act rationally and 
reasonably.''
    I appreciate your all being here today. I wanted to ask a 
little bit about not the uncertainty that I just discussed, but 
the opportunity cost that is happening to us since the 
beginning of the Trump administration. There have been 11, by 
my count, free trade agreements that have been signed without 
the United States, and these are opportunities we have missed 
to open new export markets that cause real concern for my 
farmers and ranchers in Colorado. I am deeply worried, and I 
wanted to ask you about this, Ambassador Doud, about the long-
term consequences as other companies open up to fill these 
markets. Pork exports to China and Singapore are down by 14 and 
40 percent, respectively. Meanwhile, Brazil's soy exports to 
China are increasing, and Brazil is on track to capture more 
market share there. In June alone, China imported 1.6 million 
tons more soybeans from Brazil than in the previous year. Due 
to TPP and Japan's new deal with the EU, U.S. beef annual 
export losses by 2023 are estimated at $550 million.
    Here are some of the headlines from around the world. 
Bloomberg: ``China reaches into Russia's Far East and hunt for 
crop supplies.''
    Reuters: ``Trade spat with Mexico speeds U.S. decline as 
global wheat supplier.''
    Reuters: ``Brazil, China trade to reach new levels in 
global trade spat.''
    It goes on and on. ``While U.S. frets over tariffs, Europe 
and Japan close a trade deal.''
    Reuters: ``Brazil farmers vie for soy contracts during 
U.S.-China trade war.''
    Mr. Doud, the present approach to trade is changing the 
global trade dynamics in agricultural production, and I wonder, 
in your experience are shifts of this magnitude in agricultural 
markets and supply chains only temporary and that everything 
will just go back to the way it was before these kinds of 
shifts? Can you tell us how this trade war ends without 
American agriculture taking a step backward?
    Ambassador Doud. Senator, there are a lot of things to 
discuss there. Let me talk about a couple.
    Senator Bennet. I will give you the rest of my time.
    Ambassador Doud. Thank you.
    Your point about the world being divvied up while we have 
been watching is a point that I have made many, many, many 
times. It is a point I made with Ambassador Lighthizer when I 
interviewed for this job. Oh, by the way, I would comment that 
it took me 49 weeks from the time he offered me the job until 
the time that I got in the job. And that has been valuable time 
that it has cost us in terms of getting aggressive.
    I was recently in Argentina, and my counterpart a young 
guy--his father actually works for JPMorgan in New York City. 
He worked for the Argentine Government. He asked me, 
``Senator,'' he said, ``How are things going between the U.S. 
and the U.K. in a free trade agreement?'' I said, ``Well, you 
know, we have to see what happens with regard to Brexit.'' He 
said, ``Well, I really hope you guys stumble and fall, because 
if you do, we are going to swoop right in and tell the U.K., 
``We can offer you a much better deal. You do not have to do 
something with the U.S.''
    You are absolutely correct, the world is watching. I want 
to make one point here while I have an opportunity with regard 
to China, and we all understand that we export $20 billion 
worth of agricultural products to China. It is our biggest 
market. We also understand that China retaliated against U.S. 
agricultural products, in my opinion, because they viewed the 
power of this Committee and the power of U.S. agriculture 
politically to sway opinion on this. I do not think U.S. 
farmers are swayed, and here is why:
    We have one of the biggest WTO cases in the world right now 
with regard to China and their domestic subsidies. We have 
another one with regard to their tariff rate quota 
administration. They do not buy the wheat that they said they 
would buy when they became a member of the WTO. They do not buy 
the corn. They buy no rice from us. Their tariff on distillers 
grains is 80 percent. Their tariff on ethanol is 70 percent. 
They do not buy any poultry from us because of ``high path'' 
AI. We finally got a thimbleful of beef in there after 15 years 
of me personally working on that. The grain sorghum thing is 
difficult, and we are not selling them almost what we think 
would be $1 billion worth of pet food.
    The point being with China is that they need to change 
their behavior, and this is going on not just in agriculture 
but in other things. This is an administration, the President 
has said, ``We need to do something about this.''
    Senator Bennet. I could not agree with you more. I mean, I 
do not need the lecture on that. That is my view. It would seem 
to me that provoking a trade war with Mexico, Canada, and the 
EU, when the issue fundamentally is with China, and when the 
growth for all of our farmers and ranchers in the West is going 
to come from the Pacific Rim, seems insane.
    Thank you, Mr. Chairman.
    Chairman Roberts. Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    Ambassador Doud, thank you for being in Nebraska earlier 
this week, and we had a great roundtable discussion with about 
50 ag producers and ag business people within the State, and 
they agreed with you and your comments with China. What I hear 
across my State, what you heard on Monday, is, ``It is about 
time.''
    Also, when you talked about the bilateral agreements that 
you are looking for, you heard from a Nebraska cattle feeder 
asking you, ``When are we going to see that happen with 
Japan?'' You kind of touched on that in an earlier question. Do 
you want to elaborate on how you would answer that cattle 
feeder on how we are going to get that Japanese market back and 
be able to grow it?
    Ambassador Doud. Senator, first of all, let me say that as 
you can tell, when we begin to have these conversations, I get 
pretty passionate. These are issues that--you know, I have been 
in town, this is now my 26th year, and the vast majority of 
time has been working on these kinds of things. These are very, 
very difficult issues to resolve.
    When I was in Omaha this week, I gave an impassioned 
speech--or what I thought was, anyway--with our friends from 
Japan in the room and the importance of that relationship 
between U.S. farmers and Japanese consumers. You know, my first 
job out of graduate school was with U.S. Wheat in Portland, 
Oregon, and got to work on that discussion between--involving 
the relationship between our two countries. To me, that is a 
critically important relationship, and it is personal between 
farmer and consumer with the Japanese people. We take that 
very, very seriously, and I hope we have an opportunity here to 
sit down and engage with Japan and really solidify that 
relationship for decades to come.
    Senator Fischer. You know, I had the opportunity the 
opportunity on Monday to also meet with the Japanese Ambassador 
to the United States, and we had a cordial but very frank 
conversation as well. I appreciated, again, you being there 
with a roundtable of Nebraskans and alleviating a lot of their 
concerns about where we are on these agreements and carrying 
that message to the Japanese Ambassador that we are serious 
about these negotiations. There is, as you know, that 
uncertainty out there.
    Ambassador Doud. Yes.
    Senator Fischer. I would ask you, when we are looking at 
the United States and working on bilateral agreements with 
Southeast Asia, people understand that is going to be a great 
new market, and you heard, we all hear about the importance of 
not just maintaining the markets we have but growing market 
opportunities for the great ag products that we have. Can you 
give us any information at this point on what the status is on 
negotiating with countries in Southeast Asia? What are you 
hearing about for issues and possibly concerns? I understand 
negotiations are delicate, but if you can give any kind of 
information to this Committee, I certainly would appreciate it.
    Ambassador Doud. Senator, I would be happy to talk to you, 
I think, privately more about what specifically we are looking 
at, but I can assure you that an enormous amount of ground work 
has been done on this particularly with regard to countries in 
Southeast Asia, and hopefully very soon we will be able to talk 
more about that.
    Senator Fischer. So that was a no?
    Ambassador Doud. Well, we are not quite ready yet, Senator.
    Senator Fischer. I understand. I understand, but I again 
would say to you when these agreements can be reached in 
quickly, that is important for all of our producers, and it is 
important to every citizen in the State of Nebraska because of 
the impact that agriculture has on our economy in the State.
    Mr. Under Secretary, you were also in Nebraska, and I thank 
you for returning to our State. It is important that we hear 
from you, but it is also important that USDA has a seat at the 
table when we have these trade negotiations. That is why 
Congress created your position in 2014 in the farm bill. We 
want to make sure that ag is there and is at the front of any 
agreement.
    Can you tell us if you are working with Ambassador Doud and 
with Ambassador Lighthizer to advocate for market access 
opportunities as this administration works to improve and 
update and negotiate existing and also new free trade 
agreements?
    Mr. McKinney. Well, simply put, yes and yes. Gregg and I 
talk at least once a week, usually it is together, and here 
lately it has been two, three, four times. We have called each 
other internationally to give each a heads-up on things that 
have paid dividends--I will not cite the country, but have paid 
dividends.
    Like I said, because we have got a larger group that does 
policy and all kinds of trade work at any given time. We have 
six to a dozen and sometimes more dairy and NAFTA specialists 
working in support of his team. So I hope we can be a model of 
how the two agencies should collaborate.
    I would add further that Secretary Perdue and Ambassador 
Lighthizer talk frequently, as needed. They are both busy, but 
certainly there is no hesitancy to pick up the phone or pass a 
message or in some way collaborate.
    I would just say that, yes, our team is already hard at 
work. Gregg talked about ground work laid. You can pick any 
number of countries, and we have already begun to lay some of 
the basic work. What are the facts, figures? What would you 
like out of that? We look at their needs. I meant what I said 
that trade has got to be a two-way street; otherwise, it is not 
a very productive relationship.
    So those kinds of work have been going on for some time, 
and when our friends with USTR are ready to reveal those names, 
I bet you will find that we are right there echoing those same 
countries.
    Senator Fischer. Well, I thank you for that. I thank both 
of you again for coming to Nebraska. I thank both of you for 
standing up for ag producers and working hard to get us better 
deals, because we hear a lot of examples of neglect for the 
needs of ag producers, and I am a cattle rancher. I fully 
understand the neglect over the years, and I look forward to 
good deals in the future.
    Thank you.
    Mr. McKinney. Senator, I would like to add one thing. I did 
not touch on the role I played out there. We each gave a bit of 
a keynote talk, and I was with different groups, because you 
and I had been together a few months ago, and I appreciated 
that very much.
    We go out of our way to touch and keep in touch with all 
the Japanese activities, I mean from Cherry Blossom Festival to 
food and ag receptions. I have been to Japan twice--the 
Ambassador, I have met his wife, his daughter. I mean, whatever 
we can do across the board, we are doing to sustain that 
relationship, and I think it is a matter of settling on some 
other negotiations, and then we can get there. We are ready to 
go when the time comes. We are ready to go.
    Senator Fischer. Thank you both.
    Chairman Roberts. Senator Donnelly, I am going to recognize 
you first. I know you are on a very tight time schedule. 
Senator Smith, I apologize.
    Senator Donnelly. Thank you, Mr. Chairman. I want to thank 
my colleague Senator Smith. It is incredibly kind of you. Thank 
you very, very much.
    Ambassador Doud, I get pretty passionate about this as 
well, as do my friends here on the Committee. These are the 
lives and the farms of my fellow Hoosiers that are at stake. I 
was with a group again this weekend. We have friends who are 
going to lose their farms because of what is going on right 
now. They are going to lose their life, the dreams of their 
life, because of what we are dealing with. Secretary McKinney, 
as you well know, these are very, very, very hard times for 
Indiana farmers. We have known each other fairly well for a 
long time. We have both been deeply involved in advocating on 
behalf of Hoosier agriculture.
    Yesterday I had Hoosier pork farmers. They are getting 
crushed. I also had in the hardwood lumber companies. They are 
getting crushed. Frick Services in Wyatt, which you are very 
familiar with, Mr. Secretary, the cash price for a bushel of 
beans this morning, $7.75. The cash price for corn, $3.13. At 
180 bushels, your cost for production is about $3.60. The math 
does not work.
    The question I have for you is: What banker next spring, if 
these prices are still the same, Mr. Under Secretary, is going 
to make a loan for seeds or make a loan for inputs if the cash 
price is $7.75, the cost of production is about $9.20? What 
banker in our home State is going to make that loan?
    Mr. McKinney. Thank you, Senator. Good to see you again. 
Yes, your point is very valid. I think what we are facing here 
is we have been 4 or 5 years with very depressed farm prices, 
and that is for a number of factors. I would characterize a lot 
of them to unfair practices. When I was in front of you at the 
confirmation hearing----
    Senator Donnelly. We were at about $10.70 before this price 
war started. That was the cash price for beans at that time.
    Mr. McKinney. Right. Thank you.
    Senator Donnelly. I am sorry.
    Mr. McKinney. No. That is Okay. Thank you. Yes, we are 
taking some short-term pain with the hopes of long-term gain.
    Senator Donnelly. How do you explain that to the farmer who 
is going to lose everything?
    Mr. McKinney. Well, that is very difficult, and there will 
be some losses. When we talk to the majority of farmers----
    Senator Donnelly. What if you are that person?
    Mr. McKinney. Excuse me, sir?
    Senator Donnelly. You said, you know, we will take some 
losses. What if it is the folks I was with recently in Kokomo 
who took me aside and said, ``Down the road there is a fellow 
who is going to lose everything''? What do you tell his kids, 
Mr. McKinney?
    Mr. McKinney. It is very difficult. The answer I would give 
is that we are trying to make some correction that will fix 
many of the trade issues that we have been suffering from for a 
long time. I can cite many of those. My twin brother was out 
pulling weeds out of soybeans because China has not approved 10 
biotech traits, the longest one has been there 83 months, the 
last one 53. We are trying to right-size this so we can make a 
better day for those future farmers.
    Senator Donnelly. He was able to be in the field pulling 
those soybeans. We have people who are going to lose everything 
unless something changes. We have seen in the last week that 
the administration has said--and you may know when--that they 
are about to implement another $200 billion in tariffs. Then 
there is a third tranche that is coming for $267 billion. My 
farmers keep coming in and asking, and it is about as valid a 
question as you would ever get: ``When does this end?'' Mr. 
Secretary?
    Mr. McKinney. Well, my hope is that the work going on by 
our friends at USTR on things like NAFTA and then Japan, and 
then all the other bilaterals, will bring this back. That is my 
intent, and that is what we are doing to support them.
    Senator Donnelly. So how do we bring this back when we are 
in the process of another $200 billion in tariffs in the next 
month or so? I mean, I do not--they will not tell us the exact 
date when it is coming. That is 200 more. They have said 
another 267 is coming. It seems like the light at the end of 
the tunnel is a train coming at my farmers, and there are 
farmers--because we both know them, care about them, love them. 
They are our friends. They need to know that there is an off-
ramp or an end to this, because what young man or woman 
graduating from Purdue right now is going to go into farming 
when they look and see that this is the situation?
    Mr. McKinney. It is tough, and I have talked to several, 
and all I can say is we are right-sizing things that should 
have been right-sized over the many years past. When I was in 
front of you, I talked about the slippery slope of sanitary/
phytosanitary barriers. We are actually making headway in 
changing those, sir, and that is the only answer I can provide, 
is that we have got to right-size this so that that bright 
light is not a train but the bright sunshine of a bright and 
sunny day.
    It is like the 1980's, and I went through those just as you 
were. I hope we found that we right-sized things and made it 
better for farmers.
    Senator Donnelly. Mr. Secretary, with all due respect, 
those are not regrets. Those are our neighbors. Those are our 
neighbors who are losing their farmers, who are losing their 
life's dreams, whose kids are wondering why Dad cannot do this 
anymore or Mom cannot do this anymore. This is completely self-
inflicted.
    Thank you, Mr. Chairman.
    Chairman Roberts. Senator Thune.
    Senator Thune. Thank you, Mr. Chairman. Gentlemen, thank 
you. I believe we all share the common goal of ensuring that 
U.S. companies and farmers and ranchers are able to compete on 
a level global playing field without being subject to unfair 
trade practices by other countries. As a result of some of the 
attempts this administration has made to correct unfair trade, 
farmers and ranchers who depend on sending much of what they 
produce across our borders are living in an economic nightmare 
because their products have been targeted by retaliatory 
tariffs.
    I am deeply concerned about the impact that today's 
retaliatory tariffs are having on U.S. agricultural products, 
especially considering that farmers and ranchers were already 
struggling with a weak ag economy before the tariffs were 
imposed and commodity prices dropped. My greatest concern is 
not only for the 2018 net farm income drop, but for the next 
year and succeeding years, losses due to lost global market 
share of our agricultural products, which may take years or 
decades to recapture.
    I know there has been some discussion already about the 
potential for bilateral trade agreements. I would ask you a 
question I have asked other members of the administration 
because it seems to me at least that if you want to send a 
message to China, the best way to do that is to start doing 
business with their competitors. You know, under TPP, the 
tariff on American beef going into Japan was going to drop from 
38 percent down to 9 percent. I guess my question is: Is there 
a possibility of rejoining the TPP? If not, when can we expect 
negotiations to begin on a bilateral agreement with Japan, 
which is a substantial market for U.S. beef, among other 
things, as are many of the countries in that region that were a 
part of the Trans-Pacific Partnership? Mr. Doud.
    Ambassador Doud. Senator, I think the answer to that--I do 
not know what the answer is on TPP other than I think the 
President has indicated clearly when I was in the room at one 
point, he said, you know, ``I would rather do a bilateral. I 
get a better deal.'' I think economically speaking, 
theoretically speaking, he is exactly right. So your question 
is: How do we get that down the road with Japan? The question 
is--we are having those conversations, we will continue to have 
those conversations. I think the Vice President is working on 
that. Certainly my boss is working on that. Hopefully we can 
get there as quickly as possible.
    Your point is extremely valid. Other countries have beat us 
to the punch, and we have got to get busy.
    Senator Thune. I appreciate that, and I have heard that now 
for the last couple of years since we decided to pull out of 
TPP, that we are working on bilateral trade agreements. I do 
not see any evidence that we are. Maybe there are discussions 
going on in a back channel way that are not visible to the rest 
of us, but it strikes me at least that these are huge missed 
opportunities from an economic standpoint, from a trading 
standpoint, not to mention the role that the U.S. plays in that 
region of the world, which has national security implications 
among other things.
    So I am just really frustrated, and, obviously, with the 
State of play in agriculture today where June 1st soybeans were 
$10 a bushel, I was in an elevator in South Dakota 2 days ago, 
and they were $7.05 on the board. The basis, the transportation 
cost continues to go up. Most of the farmers tell me that, to 
break even, you need at least about $8 a bushel. If you did not 
forward contract--some of ours did, but a lot of them did not. 
They are having now to look at the prospect of storing a lot of 
their soybeans because this market is just shot for the moment. 
There are no bids coming in from the PNW, which is where 65 
percent of our soybeans in South Dakota go. And so the concern 
and anxiety level is continuing to rise in farm country, and my 
impression is that it seems to fall on deaf ears around here. 
And I know that the attempt--the MFP program is designed to try 
and provide some temporary relief, and perhaps it will again. 
It is nothing more than Band-Aid. We need to open up markets. 
Even the implementation of that, which I have expressed 
concerns about how that is being rolled out and how the 
formulas that are being used, they are using this year's 
production to make the payments to the soybean producers per 
bushel, when, in fact, there are a lot of areas in South 
Dakota, and I am sure other areas of the country, where you had 
drought, you had floods, you do not have bushels this year. And 
we came up with several other ways that we think make more 
sense in terms of determining how those payments might be 
distributed and suggested those to the Department of 
Agriculture, but those two were rejected.
    So just understand that these impacts are real. The economy 
in farm country continues to deteriorate. There will be more 
and more producers who are not going to be able to get 
operating loans next year and are going to be at risk of losing 
their operations. It does not seem to me at least that that 
message, as hard as we have tried, seems to be getting across 
to the administration. We need bilateral trade agreements or 
let us get back into--let us reopen the discussions with TPP. I 
am still at a loss as to why, you know, that is not something 
that is an option that is on the table.
    Thank you, Mr. Chairman.
    Chairman Roberts. Senator Smith.
    Senator Smith. Thank you, Chair Roberts. I would like to 
start out by thanking you for this, you and Senator Stabenow as 
well.
    I want to particularly note in the discussion that we are 
having here about the intense pressures in farm country all 
across this country, and certainly in Minnesota, I am reminded 
about how grateful I am for how hard you and Debbie are working 
to get the farm bill done. You know, it is desperately needed, 
and I do not use that word ``desperate'' lightly.
    I feel that the members of this Committee on--I have had a 
chance to hear comments and answers to questions from all of my 
colleagues on both sides of the aisle, and I detect a strong, 
bipartisan agreement that there is desperation in farm country. 
I am just going to be direct. My sense is that the three of you 
gentlemen understand that very well. Honest to God, I just wish 
the person who sits in the Oval Office understood it as well.
    I think, Dr. Johansson, that you understand that this aid 
package that we have all been talking about is at best a small 
Band-Aid on a very big wound. You are doing the best you can 
with what you are dealing with, but, I mean, I heard that time 
and time again from Minnesota farmers, who said, you know, ``I 
need a hand. This is barely covering a penny on what I need.'' 
I know you know that. You know, the two of you, both of you are 
very respected in farm country in Minnesota, and I appreciate 
the conversations that we have had. I also appreciate that this 
is not the time and the place to try to negotiate in plain view 
what you are trying to accomplish with our trading partners 
around the world. I am wanting to convey to you the sense of 
urgency that I hear from the Farm Bureau members from Minnesota 
that are sitting right behind you today and what I heard--I am 
going to go here--from the Farmers Union members that I am 
going to be a little bit late to talk to because I am here.
    So let me just go to something that you said, Ambassador 
Doud, that concerned me a little bit. Senator Stabenow was 
asking about the interplay between the 232 tariffs that 
Commerce is working on and the work that you are doing on the 
ag side to address these retaliatory tariffs. What can you tell 
this Committee broadly about how the administration is working 
together and what plan there is to try to bring this complex 
situation together with some coherence?
    Ambassador Doud. Senator, I will be honest with you. I 
think a lot of that is above discussions that I have been a 
part of.
    Senator Smith. That is probably part of the problem.
    Ambassador Doud. I will tell you, I very much want to 
convey our sense of urgency at USTR on dealing with these 
agricultural trade issues. There is no question about it. My 
sincere hope is that we can get things wrapped up with NAFTA 
here and we can begin to move on to other issues to begin to 
address these issues.
    We are behind the curve. There is no question about it. I 
cannot tell you enough how much I agree with your comments on 
the sense of urgency.
    Senator Smith. With regard to NAFTA and Canada, my 
colleague Senator Klobuchar raised this, but I just want to 
come back to it briefly. As you are working, as you and 
Ambassador Lighthizer are working on this right now, you are 
working--I just want to make sure I understand. I can go back 
to Minnesota and say that you folks are working on Canada's 
Class 7 pricing scheme, and you are working on expanding market 
access, and you understand that we need a situation where we 
have got Mexico and Canada and the United States together?
    Ambassador Doud. Absolutely, Senator.
    Senator Smith. Okay. Thank you.
    Let me just touch on one other thing. Senator Bennet raised 
this concern about the--I think it was Senator Bennet talked 
about how the administration is considering placing tariffs on 
foreign autos and SUVs and auto parts and the impact that that 
would have on agriculture. I am thinking right now of 
Minnesota's pork producers particularly. Can you address 
quickly what is the plan to stop future retaliatory tariffs on 
U.S. agriculture from countries like Japan and South Korea as 
we are pursuing with the other hand these potential retaliatory 
tariffs?
    Ambassador Doud. Senator, again, I do not know--again, 232 
is the Department of Commerce. It is not something that I have 
been involved with. For my part, in terms of agriculture, what 
we are trying to do is get to an opportunity where we can 
increase our access into countries like Japan, Canada, et 
cetera, and we are trying to do that as quickly as possible.
    Senator Smith. I urge you to appreciate, as I know you do, 
that what happens with the one hand over here in Commerce has a 
deep impact on what you are trying to do on the other hand.
    Thank you.
    Chairman Roberts. Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman. I appreciate all 
of you being here today.
    Ambassador Doud, what are the major issues left to resolve 
in terms of getting Canada into an agreement on NAFTA? What are 
the major issues, and how are we doing on getting that done?
    Ambassador Doud. The major issues--they are a priority for 
us, Senator, obviously--are dairy, the grain grading issue, and 
there are some wine issues that we are working on as well.
    Senator Hoeven. On the grain grading--you know, when we 
take our grain up there and it goes to inspection, they 
immediately classify it as feed grain.
    Ambassador Doud. Yes.
    Senator Hoeven. I trust that is something that you are 
going to get--I mean, that is ridiculous, right? And you are 
going to get that addressed?
    Ambassador Doud. That is a top priority issue for us, 
Senator.
    Senator Hoeven. Good to hear. What is your sense that we 
are going to get resolution of this in the near term, for 
example, in time to get Canada in the agreement with Mexico so 
that we can vote on it, you know, before the end of the year?
    Ambassador Doud. Senator, you are asking a lot of legal 
questions and TPA questions that I do not necessarily know the 
answer to. I think our goal at this point here is---my 
understanding of it is that Congress has been notified of the 
intent to bring both Mexico and Canada into this agreement, and 
for my part in this, we are working day and night and as hard 
as we can to bring Canada into this discussion and finalize it.
    Senator Hoeven. There is another issue with table potatoes, 
red and yellow table potatoes, whereby the Canadians have 
restrictions under their Canadian ministerial exemption--and it 
is part of the Canada Ag Product Act--whereby they restrict 
shipment of table potatoes between provinces and, of course, 
our exports to their country. At the same time, they are 
increasingly bringing fresh potatoes down and putting them into 
our market. Are you addressing that in your negotiations?
    Ambassador Doud. Senator, we have just recently become 
aware of that issue, and I believe your staff joined the 
industry in my office to discuss that, and that is definitely a 
priority we are looking at to figure out and resolve, and I 
would be happy to discuss that with you privately on some of 
the ideas that we have.
    Senator Hoeven. Let us do that, because this is a clear 
trade barrier, and there may be subsidies going on as well, 
which would not meet WTO requirements, and as they continue to 
push on dairy and on pork and on poultry, you know, they are 
doing exactly what we are trying to overcome, which are these 
trade barriers. So they have to put all this product into our 
market, and they are putting up restrictions and barriers on 
our products. So I hope you are addressing those, and I believe 
you are. That is what you are telling us here today, that you 
will address those issues.
    Ambassador Doud. We are having some conversations and 
looking into that as we speak.
    Senator Hoeven. And I want to be clear, we have no greater 
ally and they are our friends and neighbors no matter what. We 
want reciprocity in our trade with Canada.
    Again, the sense I am getting from you is that Canada wants 
to get a deal in terms of to be part of a NAFTA vote before the 
end of the year. It is your sense they are working toward that.
    Ambassador Doud. Senator, I can tell you that both side--in 
the conversations that I have been a part of, both sides are 
working very hard together.
    Senator Hoeven. Okay. Secretary, anything you want to add 
as far as those questions?
    Mr. McKinney. Just that we are dedicating resources to help 
these folks with all that heavy lifting, absolutely.
    Senator Hoeven. As you all pushed it to try to NAFTA 
squared away, make progress with the EU, not only does that 
help in terms of our farmers, but I think it puts pressure on 
China. Shifting to China for a minute, our State alone, North 
Dakota alone, sends $1.5 billion worth of soybeans to China 
every year. Just our State. And we have put an incredible 
amount of work into the shipping, both the rail and the 
shipping companies, built up customers, containerized shipping, 
identity preserve--all these things, and when our producers 
cannot ship to China, that creates basis, right? Because now we 
have to try to go down to the gulf or to the east coast. And we 
are behind all the States that are to the east of us.
    As you work on this assistance for the negotiations, you 
need to take that into account. So I do not know if this is 
something for Dr. Johansson, but there are two questions here. 
If it is going to take long with China, where do we move these 
soybeans in the meantime, one? And, two, as you put out the 
second half of this assistance, how are you going to 
accommodate some of that basis which producers have built up 
over many years and is a significant part of the disruption 
that you need to take into account? So those two questions: the 
markets and then the basis on the assistance.
    Mr. Johansson. Thank you, Senator, for the question. 
Certainly, we have been asked to look at the basis issue, and, 
of course, we know that the Dakotas in the past have had basis 
problems with respect to transportation to the PNW, for 
example, in 2014, 2015.
    Senator Hoeven. Be careful here, because I talked directly 
to the Secretary, and he came back to me with a positive 
answer, which I appreciate your looking at this, but that basis 
was overcome by all this work, and that is disrupted by the 
tariffs, so it is not just a locational issue. It is a function 
of the tariff disruption, which is why it needs to be part of 
this calculation.
    Mr. Johansson. That is right. So we have been looking at 
this particular issue to try and take into account regional 
differences by basis relative to previous years' basis. As you 
can imagine, with this many commodities, it is a fairly 
complicated issue. We are looking at regional basis as well as 
differences of those bases across time, so in order to try and 
identify whether and to what extent they are being affected 
most by these tariffs right now, and we will continue to do 
that. And as the Secretary mentioned, we are considering those 
factors as we look to the calculations for a potential second 
round of payments coming later this fall.
    Senator Hoeven. And then, Mr. Secretary, again, how do we 
help move some product here in the meantime, right? Because the 
elevators right now, I mean, it is hard for them to even take 
crop, right?
    Mr. McKinney. No, I would just understand that we--I have 
made two or three notes about basis, regionalization, and 
taking that into account. You raise the point that this is a 
temporary thing. The mitigation plan is not meant to be 
repeated. So I think the best thing we can say is--and it is a 
more intermediate to long-term play, to get those markets 
reopened. If China is a problem, we have got to keep looking at 
other markets, and that is why we are spending so much time in 
Southeast Asia that does feed from and feed to the Pacific 
Northwest markets.
    Senator Hoeven. We need that push on right now as 
aggressively as you can do it.
    Mr. McKinney. Yes. I will just say again, my travels have 
been to Myanmar, Vietnam, soon to the Philippines, Indonesia, 
Japan, of course. So I would say we are focusing on that area. 
Again, that is a more intermediate to longer-term play. I think 
you understand that.
    Senator Hoeven. Okay. Thank you.
    Mr. McKinney. Thank you.
    Chairman Roberts. Senator Daines.
    Senator Grassley. First of all, let me thank you----
    Senator Daines. Senator Grassley, I just wrapped up my 56-
county tour, Senator Grassley--okay, well, he has wrapped up 
his 99-county tour, I know. He had a DQ Blizzard in Indianola 
when he wrapped up his tour for the 38th time he has done that. 
My last 48 hours, Mr. Chairman, have been--48 hours ago, I was 
in Jordan, Montana, Winnett, Montana, and Hysham, Montana. I do 
a 56-county tour. It is not the 99 counties that the Chairman 
has here, Mr. Grassley, but it is 56 counties in Montana. I can 
tell you I heard a lot about the anxiety and the concern that 
is going on right now on prices in our commodities, pulse 
crops, wheat, barley, we talked about cows a lot. There are 
three cows per person in Montana. Ag is our No. 1 industry in 
our State. That was on Tuesday.
    Today, meeting with the Farm Bureau just this morning, 
meeting with our grain growers, in fact, I cut short my Farm 
Bureau meeting so I could get down here for the Committee. And, 
in fact, the Farm Bureau folks have a lot of things they want 
to talk about, a long list, good issues. And they said, 
``Senator, get down to that Ag Committee hearing because you 
are talking about trade, and that is our single biggest concern 
we have here today, that and the farm bill getting passed.''
    And with 95 percent of the world's population outside the 
United States, I think our farmers and ranchers, they clearly 
see the incredible opportunity we have before us to get to 
fair, free markets, to reciprocity. That really is the future 
of agriculture, getting access to those markets.
    In the short term, there is a lot of concern, a lot of 
anxiety. This relates to--and I think you have heard that today 
from several Senators who literally it is an existential threat 
to certain operations. As we speak right now, they may lose 
everything related to what is going on right now with prices.
    I think it is critical that we work in concert with our 
allies so that our U.S. businesses, our farmers, our ranchers 
are able to compete on a level playing field abroad. As you may 
know, I spent a lot of time working in international markets. I 
spent 6 years on the ground in China. I had two kids born in 
Hong Kong back in the 1990's as I was working on behalf of U.S. 
business to expand into those markets. And I believe that we 
should continue to reengage on TPP as we think about our 
strategy as it relates to China. And I do see some merit in a 
lot of bilateral agreements. The problem as we see it right now 
in these negotiations, they take a lot of time. They are 
complicated. And in agriculture, as is true in business, time 
is money.
    And so as we step back and look at the big picture, I would 
highly encourage that we rethink reengaging on TPP that will 
serve as a counterweight to China's growing influence not only 
in the region, but around the world. In fact, at a recent 
hearing, Secretary Perdue agreed with me concerning the strong 
benefits of TPP.
    Mr. McKinney, could you summarize some of the tariff 
reductions? And are there benefits that TPP would provide to 
specific American ag commodities?
    Mr. McKinney. Well, I will try to answer that specific to 
any tariff reductions, because, you know, TPP has been here and 
I think is in the wings or going to be replaced by a bilateral.
    My sense is what is going on here is we have been facing 
unfair trade barriers for a long time, and if you are wondering 
whether some of these actions are helping us right-size trade, 
the answer is unequivocally yes. It is true. I have been a part 
of that. That is one of those calls that Gregg and I shared. It 
comes slower than we would like, but there has been no leverage 
for a country that has been misbehaving, particularly on 
sanitary/phytosanitary. And even inside of rules, we have had 
some countries that we won WTO suits and still got rejected in 
terms of trying to right-size that. It is very true, two or 
three.
    So what we are seeing is change. We are seeing change where 
folks are realizing the U.S. is finally very serious about 
this. I will have to turn to others who are doing the 
negotiation, but my hope is that by bringing these tariffs and 
other pressures to bear, we will see changes in behavior, and 
then those tariffs will come down. That is my hope. I am not in 
the middle of the negotiating room, but that is our hope at 
USDA, that some of the pressures that we are placing will 
realize the U.S. is serious and, of course, our tariffs coming 
down. That is our hope.
    Senator Daines. So one of the areas we actually made some 
great progress on fairly recently was removing the ban on U.S. 
beef imports that China had placed and that had been there for 
16 years. I was over in China a year ago. We actually brought 
some Montana steaks to the Premier and had a very good 
discussion, and about 60 days later, that ban on U.S. beef 
imports was removed, the second largest beef import market in 
the world.
    I remain concerned. We made a lot of progress here, but we 
may have a significant setback here and are seeing that with 
China. And I completely understand and appreciate and respect 
the fact we needed to confront what is going on with some of 
the unfair practices in China--intellectual property, unfair 
trading practices.
    Notwithstanding the broader trade dispute with China, do 
you have any updates regarding the existing opportunities and 
challenges that U.S. ranchers would face in China's market and 
the prospects for long-term growth? You spent a lot of time, it 
sounds like, in Southeast Asia most recently.
    Ambassador Doud. Senator, on the beef side of the equation, 
you are absolutely correct, it took us 15, 16 years to get in 
there. We still have some significant issues with regard to 
their requirements regarding hormones and ractopamine. It is 
definitely a step forward, but there is a tremendous amount of 
work that still has to be done here, and I believe the size of 
the Chinese beef market is now somewhere in the neighborhood of 
$4 billion a year in terms of what their imports are, and our 
exports so far have been in the tens of millions. So, 
obviously, we have got an enormous amount of work to do there.
    You know, it is encouraging that there is going to be 
another discussion with China here yet this month. This is the 
issue of our time in agriculture, is to work to build and get 
that relationship with China where it needs to be, because as I 
indicated earlier, there are so many problems with China, and 
beef is just one. But the benefit, if we make progress and get 
issues resolved, is enormous.
    Senator Daines. Well, it is. I am out of time, but my grain 
growers this morning were talking about we were starting to 
make some gains with wheat sales into China. You know how much 
Montana wheat is going to China this year? Zero.
    Mr. McKinney. If I could just add, I think Ag and Energy 
were the only two that have really seriously totally engaged, 
and that is when we were over in June, Gregg and I, and we took 
a whole team to negotiate. And I think progress was made. Not 
enough, not enough, but progress was made.
    When Secretary Mnuchin at Treasury invited some of the 
folks back, we participated. Ag was very much a part of that, 
even though ag was not the focus. And just yesterday, Gregg and 
I co-hosted Vice Minister Han Jun who is the lead ag negotiator 
from China.
    So there are larger issues to solve, but I would like to 
say that I think once we can renegotiate--ag can pick up where 
it left off and pick up and go, and that is what we are looking 
to do whenever that time is right, because there are so many 
issues across all the sectors. As far as ag, I think we have 
done everything we can possibly do and then some to sustain and 
be ready when that time is that we get the green light.
    Senator Daines. Thank you.
    Mr. McKinney. Thank you.
    Senator Daines. Thanks for the comments, and I do think we 
should take into consideration a blend of bilateral and 
multilateral trade agreements as a good strategy going forward 
here, because knocking these pins over one at a time in a 
series fashion is going to take a lot of time and we are 
running out of time right now in farm and ranch country.
    Thank you.
    Chairman Roberts. Thank you, Senator Daines.
    Secretary McKinney, thank you for coming. Ambassador Doud, 
thank you for coming. Dr. Johansson, thank you for coming. Do 
not forget that white paper. You might want to get it up to us 
as soon as you can. You have heard from several Senators their 
concern about that.
    Ted, I know that you are going to work as hard as you can 
to get this thing turned around, if we can, and I know that to 
be the case with Gregg.
    What concerns me most is what--well, ``most,'' that does 
not get it, but I guess equally with regards to restoring our 
markets is the opportunity that we did have, and I hope we do 
not stumble on it, and that is to somehow get back engaged with 
TPP. And the reason I say that, as you just read the news, 
watch the news, if you can stand to watch the news, but in the 
news here you have the Russians extending their Blue Water Navy 
200 miles. You have got the Philippines upset. You have got--
well, you have got everybody in the South China Sea upset. They 
are holding exercises now with Russia. That falls under the 
national security matter, but also so does TPP. And it seems to 
me that instead of going bilateral, bilateral, bilateral, 
bilateral times 11, to get back into TPP would really send a 
message to China. I have not visited all of those countries, 
but I have visited some, and it has been awhile. Every one of 
them said, ``We would prefer to do business with you as opposed 
to China.'' The next thing they said was, ``Do you still have 
our back?'' And that is absolutely key. And I think the farther 
we drift away from that opportunity--I am not saying that you 
are not trying to get it done--I think we add to our national 
security woes in that part of the world. I think it is that 
important.
    That will conclude our hearing today. Thank you to each of 
our witnesses for taking time to share your perspectives on 
agricultural trade. To my fellow members, we would ask that any 
additional questions you may have for the record be submitted 
to the Committee clerk 5 business days from today, or by 5 p.m. 
next Thursday, September 20th.
    The Committee is now adjourned. Thank you.
    [Whereupon, at 12:10 p.m., the Committee was adjourned.]

      
=======================================================================


                            A P P E N D I X

                           SEPTEMBER 13, 2018

=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


      
=======================================================================


                         QUESTIONS AND ANSWERS

                           SEPTEMBER 13, 2018

=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
</pre></body></html>
